CERTIFICATE OF SERVICE
No.TBD
Emmanuel Edokobi
Petitioner,
v.
Toyota Motor Credit Corporation; SunTrust Bank
Respondents.
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. 1 am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
Emmanuel Edokobi Petition for Writ of Certiorari, by mailing a true and correct copy of the
same by Fedex 2-Day, prepaid for delivery to the following addresses.
Philip T. Evans
Holland & Knight, LLP
Suite 1100
17th Street, NW
Washington, DC 20006-3202
(202) 457-7403
philip.evans@hklaw.com
Counsel for Toyota Motor Credit Corporation

Matthew A. Egeli, Esq.
Egeli Law Firm, PLLC
108 Mactanly PI
Suite D
Staunton, VA 24401
(540) 569-2690
matthew@egelilaw.com
Counsel for SunTrust Bank

July 9, 2021
SCP Tracking: Edokobi-2005 Stratton Drive-Cover White

